               The Office of Competitive Sourcing Needs to
                 Improve the Planning, Scheduling, and
                            Costing of Projects

                                   August 2004

                       Reference Number: 2004-10-146




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.


Redaction Legend:
7 = Predecisional staff recommendations or suggestions to agency decision makers.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          August 26, 2004


      MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES




      FROM:                  (for) Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Office of Competitive Sourcing Needs to
                             Improve the Planning, Scheduling, and Costing of Projects
                             (Audit # 200310024)


      This report represents the results of our audit to evaluate the effectiveness of the
      Internal Revenue Service (IRS) competitive sourcing program in planning, scheduling,
      and costing its projects. Competitive sourcing is one of five Government-wide initiatives
      outlined in the President’s Management Agenda for improving the management and
      performance of the Federal Government.
      In summary, the IRS needs to improve the planning, scheduling, and costing of its
      projects. When an activity is nominated for the competitive sourcing process, resources
      necessary to perform a Business Case Analysis to evaluate the potential costs and
      benefits of competition are committed. However, the IRS does not have adequate
      procedures to assist in selecting activities to nominate for competitive sourcing. Also,
      the Office of Competitive Sourcing made significant revisions to original project
      schedules. As a result, projects went considerably beyond the scheduled dates for
      completion. Finally, the IRS did not use a reliable method to track and compile the
      costs of competitive sourcing. As a result, the costs were understated in
      Fiscal Year 2003 by approximately $1 million.
      We recommended the Chief, Agency-Wide Shared Services (AWSS), develop
      procedures for nominating activities for a Business Case Analysis. In addition, the
      Chief, AWSS, should ensure the Office of Competitive Sourcing establishes realistic
      milestones for competitive sourcing projects by considering relevant factors,
      responsibilities, and historical time periods for similar tasks and incorporate the
      milestones into finalized project schedule guidelines. The Chief, AWSS, in coordination
      with the Chief Financial Officer (CFO), should establish procedures for the reporting of
                                                         2

costs, savings, and other data to the Department of the Treasury and the Congress.
The procedures should include the use of the Automated Financial System (AFS)1 to
record and prepare cost information for competitive sourcing.
Management’s Response: The Director, Office of Competitive Sourcing, agreed with
our recommendations. However, the Director noted disagreement with certain facts in
our report and provided additional perspective on the improvements which have been
made in the planning, scheduling, and costing of competitive sourcing projects. The
Office of Competitive Sourcing considered the Recommendations 1 and 2 to develop
procedures for nominating activities and to establish realistic schedule milestones to be
fully implemented and will complete corrective action on the two remaining
recommendations. Specifically, the Office of Competitive Sourcing, CFO, and budget
contacts for the business divisions have been working since May 2003 to ensure
competition costs and savings are accurately captured, updated, standardized, and
reported regularly in the AFS/Integrated Financial System (IFS). Additional steps have
been initiated to document the procedures for AFS/IFS cost tracking. Procedures will
include unique AFS/IFS project tracking codes to correspond with the Department of the
Treasury and Office of Management and Budget data call requirements.
Office of Audit Comment: We believe the facts in this report are accurate as presented.
With respect to Recommendation 1, the Director, Office of Competitive Sourcing, did not
differentiate between the nominating phase and the evaluating phase of competitive
sourcing. After an activity is nominated for competitive sourcing, it is subjected to a
Business Case Analysis, which requires the IRS to evaluate whether an activity is a
potential candidate for competitive sourcing. The Office of Competitive Sourcing noted
that the Business Case Analyses have been successful and recognized by the
Government Accountability Office.2 However, our recommendation addresses how
activities are nominated, which occurs prior to the Business Case Analyses. The IRS
expended resources on several Business Case Analyses that were postponed or
cancelled for reasons that could have been identified prior to beginning the Business
Case Analyses, such as ensuring the availability of resources. The Office of
Competitive Sourcing did not provide documentation on how it applied nominating
criteria for Fiscal Years 2002, 2003, and 2004, nor has it revised its procedures to
ensure future activities are nominated based on quantifiable criteria.
The Office of Competitive Sourcing considered Recommendation 2 to establish realistic
schedule milestones to be fully implemented and listed several steps it takes to
establish and adjust the project schedules. It also noted that the IRS completes
projects in less time compared to other Federal Government activities. However, we did
not offer an opinion on the reasonableness of the time it took the IRS to complete
competitive sourcing studies. Our recommendation is to apply lessons learned from
past projects to develop more realistic project schedules. The Office of Competitive

1
  The IRS uses the AFS to capture cost information. The AFS requires the creation of unique Project Cost
Accounting System codes, which are used to identify project costs. It will be replaced by the Integrated Financial
System.
2
  Formerly the General Accounting Office.
                                          3

Sourcing has not taken this action. For example, the draft Project Schedule guidelines
still recommend 4 months to complete the Performance Work Statement, even though it
took 12 months to complete this step for 2 of the 3 competitive sourcing projects we
reviewed.
Although we disagree that management’s corrective actions fully address
Recommendations 1 and 2, we do not intend to elevate our disagreement concerning
them to the Department of the Treasury for resolution. Management’s complete
response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                         The Office of Competitive Sourcing Needs to Improve
                          the Planning, Scheduling, and Costing of Projects




                                                  Table of Contents


Background ............................................................................................... Page 1
Better Resource Planning Is Needed Before Starting the
Competitive Sourcing Process .................................................................. Page 2
         Recommendation 1: .......................................................................Page 8

Significant Revisions Were Made to Original Project Schedules............... Page 9
         Recommendation 2: .......................................................................Page 12

The Method for Compiling the Costs of Competitive Sourcing
Is Not Accurate or Reliable........................................................................ Page 13
         Recommendations 3 and 4: ...........................................................Page 16

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 17
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures............................................................ Page 21
Appendix V – Timeline of Major Events for Three Activities Reviewed ..... Page 22
Appendix VI – Management’s Response to the Draft Report .................... Page 24
             The Office of Competitive Sourcing Needs to Improve
              the Planning, Scheduling, and Costing of Projects

                            Competitive sourcing is the process for determining whether
Background
                            a commercial activity1 will be performed by a public or
                            private source. It is one of five Government-wide initiatives
                            outlined in the President’s Management Agenda for
                            improving the management and performance of the Federal
                            Government. The President’s Management Agenda noted
                            that nearly one-half of all Federal Government employees
                            perform tasks that are readily available in the commercial
                            marketplace—tasks such as data collection, administrative
                            support, and payroll services. Historically, the Federal
                            Government has realized cost savings in a range of 20 to
                            50 percent when Federal and private sector service
                            providers compete to perform these functions. The
                            competitive sourcing initiative is expected to consistently
                            generate significant savings and performance
                            improvements.
                            Office of Management and Budget (OMB) Circular
                            No. A-76, Performance of Commercial Activities,
                            establishes Federal Government policy for the competition
                            of commercial activities. Agencies are required to follow
                            the policies and procedures outlined in the Circular for
                            competing commercial activities. In May 2003, the OMB
                            published revisions to Circular No. A-76 to improve the
                            competitive sourcing process and to set time periods for
                            completing competitions.
                            The Internal Revenue Service (IRS) established an Office of
                            Competitive Sourcing in September 2001. This Office
                            centrally manages the competitive sourcing program and has
                            the responsibility of providing oversight to ensure quality,
                            timeliness, consistency, responsiveness, and coordination.
                            In the Fiscal Year (FY) 2002 inventory of activities
                            performed by its employees, the IRS estimated
                            approximately 20 percent (19,600 of 100,700) of its
                            full-time employees perform activities that are commercial
                            in nature.
                            This review was performed at the Office of Competitive
                            Sourcing in Washington, D.C., during the period
                            September 2003 through June 2004. The audit was


                            1
                              A commercial activity is the process resulting in a product or service
                            that is or could be obtained from a private sector source.
                                                                                              Page 1
                    The Office of Competitive Sourcing Needs to Improve
                     the Planning, Scheduling, and Costing of Projects

                                   conducted in accordance with Government Auditing
                                   Standards. Detailed information on our audit objective,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.

Better Resource Planning Is        The Office of Competitive Sourcing developed the
Needed Before Starting the         following five-step process to support the IRS in using
Competitive Sourcing Process       competitive sourcing to produce cost savings and
                                   efficiencies:
                                       1. Planning – the compilation of the IRS-wide inventory
                                          of commercial activities.2
                                       2. Nominating – the selection of activities as potential
                                          candidates for competition for the upcoming fiscal
                                          year.
                                       3. Evaluating – the Business Case Analysis to determine
                                          the feasibility of subjecting the nominated activities to
                                          competition.
                                       4. Selecting – based on the Business Case Analysis, the
                                          Strategy and Resources Committee decides whether to
                                          compete or not compete the activity.
                                       5. Executing – if the decision is made to compete the
                                          activity, a Performance Work Statement3 is prepared,
                                          bids are solicited, and a contract is awarded if a
                                          commercial vendor is the most efficient provider. This
                                          step also includes the transition phase.
                                   Once an activity is nominated, resources are committed to
                                   perform a Business Case Analysis to evaluate the potential
                                   costs and benefits of competition. For the 3 projects
                                   reviewed, the time used by the IRS to complete the steps
                                   leading up to the actual competition was more than
                                   1½ years. Table 1 shows the time used by the IRS for the
                                   processes leading up to the competition for the



                                   2
                                     As required by the Federal Activities Inventory Reform Act, Pub. L.
                                   No. 105-270.
                                   3
                                     The Performance Work Statement identifies the technical, functional,
                                   and performance characteristics of the agency’s (bureau’s) requirements.
                                   The Performance Work Statement identifies essential outcomes to be
                                   achieved; specifies the agency’s required performance standards; and
                                   specifies the location, units, quality, and timeliness of the work.
                                                                                                   Page 2
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

               three projects reviewed. See Appendix V for timeline
               details for the three projects.
                      Table 1: Time Spent on Projects Prior to the Competition

                                                        Time per Activity (in months)
                                                                              4
                             Task                    Area           Campus             7-----------
                                                  Distribution       Center                 ---
                                                    Centers        Operations         --------------

                   Conduct Business Case
                                                        5                5                 7-
                   Analysis/Make Decision
                   Assemble Performance
                                                        2                4                 7-
                   Work Statement Team
                   Complete Performance
                   Work Statement/Issue                12               12                7-5
                   Solicitation
                Total Time for
                                               19                       21                7--6
                Preliminary Steps
               Source: IRS Office of Competitive Sourcing.

               Once the solicitation for bids from competitors is
               announced, the IRS has 12 more months to complete the
               competition.7 Overall, it can take 3 years or more to
               complete the entire competitive sourcing process.
               Because of the resources committed, nominating an activity
               for the competitive sourcing program is an important step in
               the process. The Department of the Treasury, the OMB, and
               IRS employees are notified of the activities nominated. In
               its strategic plan, the Office of Competitive Sourcing
               outlined the following criteria to be considered before
               activities are nominated as potential competitive sourcing
               candidates:
                     •   Competition will not negatively affect the mission.

               4
                 Campuses are the data processing arm of the IRS. The campuses
               process paper and electronic submissions, correct errors, and forward
               data to the computing centers for analysis and posting to taxpayer
               accounts.
               5
                 7------------------------------------------------------------------------------------
               ---------------------------------------------------.
               6
                 7-------------------------------------------.
               7
                 OMB Circular No. A-76 (revised in May 2003) states that a standard
               competition shall not exceed 12 months from public announcement
               to performance decision date. The time period may be extended by
               6 months if the competition is expected to be particularly complex.
                                                                                             Page 3
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

                  •   The activity can be competed as a unit and not a
                      collection of independent positions.
                  •   Activities appear to be readily available and
                      economical in the private sector.
                  •   Competition would not hinder IRS modernization,
                      budget, or workforce planning requirements.
                  •   The potential exists for cost efficiencies and savings.
               Other than these general criteria in the strategic plan,
               procedures have not been completed to guide this process.
               There are two important factors which the IRS needs to
               consider before nominating activities for a Business Case
               Analysis: 1) whether people and other resources are
               available to complete the competitive sourcing process and
               2) how to prioritize projects based on resources and likely
               savings/improved service.
               In FY 2002, the first year it nominated activities for
               competitive sourcing, the IRS identified the resources it
               would need to carry out the competitive sourcing process.
               Competitive sourcing is in process or completed for all of
               these projects. Table 2 shows the status of the projects that
               were nominated in FY 2002.




                                                                      Page 4
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

                            Table 2: Status of Activities Nominated for the
                             Competitive Sourcing Program for FY 2002

                                                             Number of
                                                              Full-Time
                                   Activity                                    Status
                                                             Equivalents
                                                               (FTE)8
                   Area Distribution Centers                    500              Active
                   Architects and Engineers                      10           Completed
                   Field and Headquarters Mailroom Sites         70              Active
                   Operation and Maintenance of Delegated
                                                                100              Active
                   Buildings
                   Campus Center Operations                     350              Active
                   Total                                       1,030
               Source: IRS Office of Competitive Sourcing.

               The IRS postponed three of the seven activities nominated
               for FY 2003. 7------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------. Table 3 shows the status of the projects that were
               nominated in FY 2003.




               8
                A measure of labor hours in which 1 FTE is equal to 8 hours
               multiplied by the number of compensable days in a fiscal year. For
               FY 2004, 1 FTE is equal to 2,096 staff hours. The chart lists the number
               of FTEs that are being studied for each activity.
                                                                               Page 5
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

                              Table 3: Status of Activities Nominated for the
                               Competitive Sourcing Program for FY 2003

                                                                           Number          Status
                                             Activity
                                                                           of FTEs
                   7---------------------9                                      7---          7---------
                   7------------------------------------------                   7--             7------
                   7--------------                                            7-----             7------

                   7------------------------------                              7---             7------

                                                                                               7--------
                                                                                                   7----
                   7----------------                                             7--
                                                                                               7--------
                                                                                              7---------
                   7------------------------                                    7---          7---------
                   7--------------------------------------------                7---          7---------
                   Total                                                      2,658
               Source: IRS Office of Competitive Sourcing.

               7-----------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------.




               9
                 7------------------------------------------------------------------------------------
               --------------------------------------------------------------------------------------.
                                                                                            Page 6
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

                           Table 4: Status of Activities Nominated for the
                            Competitive Sourcing Program for FY 2004

                                                               Number
                                      Activity                               Status
                                                               of FTEs
                7--------------                                    7---       7---------
                7---------------------------                       7---       7---------
                7-----------------                                 7---       7---------
                7--------------------------------------            7---          7------
                7----------------------------                      7---      7-----------
                Total                                             2,201
               Source: IRS Office of Competitive Sourcing.

               For 2 of the 6 activities postponed in FYs 2003 and 2004,
               the Business Case Analyses had been completed for
               approximately $600,000 in contractor costs. In addition,
               approximately $180,000 was spent for contractor support
               for the Performance Work Statement for 1 of the postponed
               projects. While the postponed projects can be resumed at a
               later date using much of the work already completed,
               additional time and resources will likely be necessary to
               update the information. Moreover, premature nomination of
               activities can negatively affect morale and job performance.
               The Office of Competitive Sourcing posted a draft guide to
               competitive sourcing on its web site. The guide explains
               competitive sourcing and describes how to accomplish tasks
               required for the IRS competitive sourcing process. The
               guide also includes procedures for the appointment of
               competition officials, communications with and reviews by
               functional executive leadership, budget requests, and
               nondisclosure statements. However, the guide does not
               include any procedures about nominating activities for a
               Business Case Analysis. Without procedures for
               nominating activities, the IRS may commit resources that
               are not available and may not be nominating the best
               candidates for the program.




                                                                             Page 7
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

               Recommendation

               1. The Chief, Agency-Wide Shared Services, should
                  establish procedures for nominating activities for a
                  Business Case Analysis.
               Management’s Response: The Office of Competitive
               Sourcing stated that corrective action was completed on
               May 17, 2004. It believes guidelines and practices for the
               project selection process have been established and are
               being followed. During the project selection process, the
               IRS answers the following questions:
               •    Is the function core to the IRS mission?
               •    How much does the function cost?
               •    Is there potential to reduce cost and/or improve
                    productivity by competing the function?
               •    How does the function fit into other current or planned
                    strategic projects?
               Based on the responses to these questions along with other
               factors (analysis of current operations, market research, and
               the Most Efficient Organization (MEO)10 design), the IRS
               calculates and considers economic benefits of each potential
               alternative and the upfront and recurring investments
               required to achieve and maintain efficiencies. The IRS
               makes a decision to compete based on strategic business
               alignment, investment risks, return on investment, and
               alignment with the Federal Activity Inventory Reform Act
               and other President’s Management Agenda goals, including
               Human Capital Initiatives.
               Office of Audit Comment: In responding to our report, the
               Director, Office of Competitive Sourcing, did not
               differentiate between the nominating phase and the
               evaluating phase of competitive sourcing. Our
               recommendation focuses on the second stage of the
               competitive sourcing life cycle (nomination), as outlined in
               the IRS Competitive Sourcing Strategic Plan for
               FYs 2002-2005. The Office of Competitive Sourcing stated

               10
                 The MEO is the Federal Government’s organizational unit that will
               compete for the work described in the Performance Work Statement.
                                                                             Page 8
                    The Office of Competitive Sourcing Needs to Improve
                     the Planning, Scheduling, and Costing of Projects

                                   it is following the above criteria for project selection;
                                   however, much of its discussion appears to be addressing
                                   steps taken during the Business Case Analysis, not during
                                   the nominating process. In addition, no documentation was
                                   available on how the Office of Competitive Sourcing
                                   applied the criteria in the nomination stage for FYs 2002,
                                   2003, and 2004, nor have procedures been established to
                                   ensure future activities are nominated based on quantifiable
                                   criteria. Adequate procedures should ensure appropriate
                                   criteria are applied and documented and resources are
                                   available to complete the competition.
                                   The schedule for a competitive sourcing project includes
Significant Revisions Were Made
                                   many variables that can affect the timeline for completion.
to Original Project Schedules
                                   The complexity of the project, the availability of internal
                                   and external resources, the cooperation of the National
                                   Treasury Employees Union (NTEU), and the number and
                                   quality of contractor proposals can all affect the schedule for
                                   conducting studies. In fact, for the three studies reviewed,
                                   these variables significantly affected the original project
                                   schedules. As a result, the project completion dates have
                                   been extended, which complicates transition planning and
                                   delays cost savings.
                                   The Office of Competitive Sourcing develops the project
                                   schedules for competitive sourcing studies with input from
                                   each project team. For the three competitive sourcing
                                   projects reviewed, changes had to be made to the project
                                   schedule start and completion dates. Table 5 shows the
                                   project planned start dates from the August 2002 project
                                   schedules compared with the actual start dates. For
                                   purposes of project schedules, the start date is considered
                                   the date on which the IRS begins to develop its Performance
                                   Work Statement.




                                                                                           Page 9
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

                       Table 5: Comparison of the Project Schedule Start Dates
                                     and Actual Start Dates

                                                            Start date                    Months
                        Activity
                                                Planned                  Actual           Delayed

                Area Distribution
                                        April 22, 2002             April 22, 2002             —
                Centers
                Campus Center
                                        September 16, 2002 October 28, 2002                     1
                Operations
                7---------------
                                        7----------------          7------------               7-
                --------------
               Source: IRS Office of Competitive Sourcing.

               7-----------------------------------------------------------------------
               ------------------------------------------------------------------------
               -----------------------------------------------------------------------.
               Because contractor support was necessary to begin the
               project, the start date was delayed until the contractor
               support could be obtained.
               Project schedules also had to be revised to reflect changes to
               the project completion date. Table 6 shows the changes to
               the completion dates in the project schedules from the dates
               originally planned for three ongoing competitive sourcing
               projects.
                    Table 6: Revisions to the Completion Dates in Project Schedules

                                                       Completion date                     Months
                       Project
                                                                                           Delayed
                                              Planned                    Revised
               Area Distribution
                                       September 22, 2003 September 30, 2004                   12
               Centers
               Campus Center
                                       February 9, 2004          December 1, 2004              10
               Operations
               7---------------
                                       7------------             7----------------             7-11
               --------------
               Source: IRS Office of Competitive Sourcing.

               The Area Distribution Centers project was the IRS’ first
               competitive sourcing project. This is a large, complex
               project which involves approximately 1,300 employees.

               11
                  7-----------------------------------------------------------------------------------
               ---------------------------------------------------------------------------------------
               --------------------------------------------------.
                                                                                           Page 10
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

               During the process, the NTEU raised issues related to
               employee rights that the IRS had to address. For example,
               the IRS had to address NTEU questions related to
               employees’ notification and nondisclosure letters,12 which
               caused it to delay the development of the MEO until
               discussions were held with the NTEU. The schedule had to
               be revised because the original project schedule did not
               include sufficient time for these discussions.
               In addition, the Procurement function provided the Office of
               Competitive Sourcing with two possible schedules for the
               Area Distribution Centers project. The longer of the two
               schedules included time to hold discussions with bidders,13
               while the second schedule assumed that discussions would
               not be necessary. The Office of Competitive Sourcing
               managed the project using the schedule that did not allow
               for vendor discussions. For example, in January 2004 the
               Office of Competitive Sourcing briefed the Director, Media
               and Publications, Distribution Division, that the contract
               would be awarded in April 2004, which is the schedule date
               without vendor discussions. The briefing did not include
               the possibility that the award date could be delayed until
               July 2004 if discussions were necessary. However, in
               March 2004, the Procurement function determined that
               vendor discussions would be necessary, and the award date
               was delayed.
               The Office of Competitive Sourcing also underestimated the
               time necessary to develop a Performance Work Statement.
               For the Area Distribution Centers and the Campus Center
               Operations projects, the Office of Competitive Sourcing
               scheduled 5 months and 7 months, respectively, to complete
               the Performance Work Statement. However, the completion
               of the Performance Work Statement took approximately
               12 months for both projects. 7------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------
               ------------------------------------------------------------------------


               12
                  The nondisclosure letter addresses an employee’s access to sensitive
               procurement data and the requirement to protect that data.
               13
                  Discussions with prospective vendors are sometimes necessary to
               clarify issues and give the bidders an opportunity to revise their
               proposals.
                                                                              Page 11
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

               ------------------------. In addition, the Office of Competitive
               Sourcing underestimated the time necessary to complete the
               independent review of the MEO proposal.
               Future project schedules should take into account the time
               actually required to complete these tasks. Project delays can
               affect employees and the cost to complete the project and
               can postpone cost savings. While some of these delays may
               not have been avoidable, consideration of these potential
               issues should be included in the project schedules. Instead
               of targeting the most optimistic dates, project schedules
               should plan for the most probable dates, so managers are
               aware of the likely time periods and can plan for them
               accordingly.
               The Office of Competitive Sourcing developed draft
               guidelines for competitive sourcing project schedules. The
               purpose of having project schedules is to enable the
               Competitive Sourcing Project Manager and the Office of
               Competitive Sourcing to monitor and evaluate the progress
               of the projects. However, the project schedule guidelines
               are not complete and do not always consider the IRS’
               experience with ongoing projects. For example, although
               both the Area Distribution Centers and Campus Center
               Operations projects took 12 months to complete the
               Performance Work Statements, the January 2004 guidelines
               designate 4 months to complete future Performance Work
               Statements. The IRS needs to update and improve its
               scheduling for competitive sourcing studies to recognize the
               lessons learned from its ongoing projects.

               Recommendation

               2. The Chief, Agency-Wide Shared Services, should
                  ensure the Office of Competitive Sourcing establishes
                  realistic milestones for competitive sourcing projects by
                  considering relevant factors, responsibilities, and
                  historical time periods for similar tasks and incorporate
                  the milestones into finalized project schedule guidelines.

               Management’s Response: The Office of Competitive
               Sourcing stated that corrective action was completed on
               June 17, 2004. It is following project management
               disciplines, including planning and scheduling and
                                                                       Page 12
                     The Office of Competitive Sourcing Needs to Improve
                      the Planning, Scheduling, and Costing of Projects

                                    incorporating lessons learned for competitive sourcing
                                    competitions. The Office of Competitive Sourcing stated it
                                    has also taken steps to support compressing of timelines by:

                                    •   Sharing lessons learned at monthly and biweekly
                                        meetings.
                                    •   Expanding information on its web site.
                                    •   Obtaining expert contractor support for project
                                        acceleration.
                                    •   Providing training.
                                    •   Maintaining knowledge transfer from the Business Case
                                        Analysis phase to the Performance Work Statement
                                        phase by keeping the same project leader to assist teams
                                        in meeting the “stretch schedule goals.”
                                    The Office of Competitive Sourcing stated it would
                                    continue to refine and condense the project schedules.
                                    Office of Audit Comment: The draft guidelines for Project
                                    Schedules in the IRS Guide to Competitive Sourcing do not
                                    appear to address lessons learned. As we noted, the Office
                                    of Competitive Sourcing acknowledges that it takes
                                    12 months to complete a Performance Work Statement.
                                    However, the draft guidelines suggest a 4-month timeline
                                    for the Performance Work Statement. While the IRS may
                                    be informally sharing information and lessons learned, the
                                    Office of Competitive Sourcing needs to formalize this
                                    process and incorporate the results into its written
                                    guidelines.

                                    In August 2001, the Acting Chief Financial Officer (CFO)
The Method for Compiling the
                                    for the Department of the Treasury issued a memorandum to
Costs of Competitive Sourcing Is
                                    all Department of the Treasury bureaus requiring the
Not Accurate or Reliable
                                    collection of costs and savings resulting from compliance
                                    with OMB Circular No. A-76. The purpose of collecting
                                    these costs is to determine the point at which the savings
                                    exceed the costs, identify additional funds needed, and
                                    identify potential areas for reducing costs. Data collection
                                    was to be implemented in whatever manner was most
                                    efficient for each bureau. In January 2004, the Consolidated


                                                                                          Page 13
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

               Appropriations Act, FY 2004,14 was signed into law. The
               Act includes a Government-wide requirement for each
               agency to report to the Congress on its competitive sourcing
               activities, including the costs and savings, for the prior fiscal
               year.
               The IRS began compiling and submitting reports on its
               competitive sourcing costs in FY 2002. The IRS reports the
               following quarterly costs to the Department of the Treasury:
               •    Cost of managing the competitive sourcing program –
                    this includes the administrative duties of the Office of
                    Competitive Sourcing and all work associated with the
                    Business Case Analysis.
               •    Cost of conducting competitions – this includes all work
                    conducted by the business units subsequent to the
                    decision to compete the activity.
               However, the IRS does not have adequate procedures to
               ensure the costs it reports to the Department of the Treasury
               are accurate and reliable. The IRS has a cost accounting
               system15 to collect costs; however, it is not using its system
               to collect all of its costs. Inadequate procedures contributed
               to the IRS underreporting costs to the Department of the
               Treasury by $1 million for FY 2003. This was due to an
               error in consolidating quarterly costs. The Office of the
               CFO corrected the error after we brought it to their
               attention. The costs for FYs 2002 and 2003 are shown in
               Table 7.




               14
                 Consolidated Appropriations Act, FY 2004, Pub. L. No. 108-199.
               15
                 The IRS uses the Automated Financial System (AFS) to capture cost
               information. The AFS requires the creation of unique Project Cost
               Accounting System codes, which are used to identify project costs.




                                                                           Page 14
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

                    Table 7: Costs of the IRS Competitive Sourcing Program

                                                              Cost (in millions)
                                 Task
                                                            FY 2002        FY 200316
                Managing the program                             3.8            4.9
                Conducting competitions                          1.8            5.4

                Total                                           $5.6          $10.3
               Source: IRS Office of the CFO.

               For FY 2002, the Office of the CFO identified these costs
               by asking the IRS divisions to provide information on costs
               for salary, travel, and training related to competitive
               sourcing and by asking the contractor to provide the costs
               billed to the IRS for the fiscal year. In FY 2003, the Office
               of the CFO began capturing salary, travel, and training costs
               by using its cost accounting system. However, the Office of
               the CFO did not use the system to capture and report the
               contractor costs. Instead, it asked each contractor to provide
               this information each quarter. In the beginning of FY 2002,
               only one contractor was working on competitive sourcing
               initiatives. In FY 2003, 9 contractors worked on various
               aspects of the competitive sourcing program and accounted
               for $4.8 million (47 percent) of the $10.3 million, which
               increases the importance of recording this information on
               the IRS cost accounting system as costs are incurred.
               Proper use of the IRS cost accounting system would
               eliminate the need to manually compile these costs.
               In the future, the IRS will also be expected to report on
               savings resulting from competitions, which will be
               calculated by comparing the previous cost of performing the
               activity with Federal Government resources with the price
               of the winning contractor or Federal Government team
               offer. As of March 2004, there had been no savings; the
               IRS standard competitions were still in process and no
               awards had been announced. According to the Office of the
               CFO, savings are expected to begin in FY 2005.


               16
                 The IRS originally reported $4.2 million for managing the program
               and $5.1 million for conducting competitions, for a total of $9.3 million.
               The costs in this table represent the costs reported after the IRS made a
               correction.
                                                                               Page 15
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

               Recommendations

               The Chief, Agency-Wide Shared Services, and the CFO
               should:
               3. Use the Automated Financial System (AFS)17 to record
                  and prepare cost information for competitive sourcing.
               4. Establish written procedures for reporting costs, savings,
                  and other required competitive sourcing data to the
                  Department of the Treasury and to the Congress.
               Management’s Response: The Office of Competitive
               Sourcing, CFO, and budget contacts for the business
               divisions have been working since May 2003 to ensure
               competition costs and savings are accurately captured,
               updated, standardized, and reported regularly in the
               AFS/Integrated Financial System (IFS). Additional steps
               have been initiated to document the procedures for AFS/IFS
               cost tracking. Procedures will include unique AFS/IFS
               project tracking codes to correspond with the Department of
               the Treasury Department and Office of Management and
               Budget data call requirements.




               17
                    The AFS will be replaced by the Integrated Financial System.


                                                                               Page 16
                        The Office of Competitive Sourcing Needs to Improve
                         the Planning, Scheduling, and Costing of Projects

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of our review was to evaluate the effectiveness of the Internal Revenue
Service (IRS) competitive sourcing program in planning, scheduling, and costing its projects. To
accomplish our objective, we:
I. Assessed the process the IRS developed for selecting and competing commercial activities.1
    A. Reviewed the IRS competitive sourcing plan, minutes of the Competitive Sourcing
       Coordination Group, and other documents related to the IRS competitive sourcing
       program.
    B. Obtained criteria established by the Office of Management and Budget (OMB) and the
       Department of the Treasury for developing a competitive sourcing plan and compared the
       IRS competitive sourcing program plan with the criteria.
    C. Discussed the competitive sourcing process with the Director and staff of the Office of
       Competitive Sourcing and with project leaders, team leaders, and team participants in the
       Wage and Investment (W&I) Division, Modernization and Information Technology
       Services (MITS) organization, and Agency-Wide Shared Services (AWSS) organization.
    D. Selected a judgmental sample of three of the eight projects undergoing a full competitive
       sourcing study from the W&I Division, MITS organization, and AWSS organization;
       reviewed the steps taken to select the activities for competition; and evaluated the
       process. We judgmentally selected the sample to obtain one project from each of the
       above divisions.
II. Reviewed the steps the IRS has taken to meet the standards established for the President’s
    Management Agenda competitive sourcing initiative.
    A. Identified the President’s Management Agenda standards and goals and compared IRS
       performance with the standards and goals.
    B. Discussed the President’s Management Agenda competitive sourcing initiative with the
       Director and staff of the Office of Competitive Sourcing.
III. Assessed the method used by the IRS for tracking costs related to the competitive sourcing
     program to determine whether IRS reported costs were accurate.
    A. Obtained the Department of the Treasury’s criteria for tracking costs and compared the
       IRS methodology for tracking costs with the criteria.


1
 A commercial activity is the process resulting in a product or service that is or could be obtained from a private
sector source.
                                                                                                              Page 17
                  The Office of Competitive Sourcing Needs to Improve
                   the Planning, Scheduling, and Costing of Projects

   B. Discussed the methodology for tracking competitive sourcing programming costs with
      representatives of the Chief Financial Officer organization.
   C. Reviewed documentation related to costs.
IV. Reviewed the IRS plans to comply with OMB Circular No. A-76, Performance of
    Commercial Activities, including transition issues.




                                                                                    Page 18
                   The Office of Competitive Sourcing Needs to Improve
                    the Planning, Scheduling, and Costing of Projects

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Joan R. Floyd, Lead Auditor
Susan A. Price, Senior Auditor
Michael J. Della Ripa, Auditor




                                                                                      Page 19
                  The Office of Competitive Sourcing Needs to Improve
                   the Planning, Scheduling, and Costing of Projects

                                                                        Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Financial Officer OS:CFO
Chief Information Officer OS:CIO
Commissioner, Wage and Investment Division SE:W
Associate Chief Financial Officer for Performance Budgeting OS:CFO:PB
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Competitive Sourcing OS:A:C
Director, Procurement OS:A:P
Director, Media and Publications SE:W:CAR:MP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Agency-Wide Shared Services OS:A:F




                                                                             Page 20
                      The Office of Competitive Sourcing Needs to Improve
                       the Planning, Scheduling, and Costing of Projects

                                                                                     Appendix IV


                                       Outcome Measures
This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•     Reliability of Information – Actual; $1 million understatement in costs of the competitive
      sourcing program reported to the Department of the Treasury for Fiscal Year 2003
      (see page 13).
    Methodology Used to Measure the Reported Benefit:
We reviewed the consolidated and quarterly cost reports the IRS sent to the Department of the
Treasury for Fiscal Years 2002 and 2003. We also reviewed the process for assembling the
reports and determined that inadequate procedures contributed to the understatement.




                                                                                            Page 21
                 The Office of Competitive Sourcing Needs to Improve
                  the Planning, Scheduling, and Costing of Projects

                                                                                      Appendix V


                           Timeline of Major Events for
                            Three Activities Reviewed

                              Area Distribution Centers

Date                     Event
September 2001          Business Case Analysis (BCA) team began its work.
February 22, 2002       Results of the BCA were presented to the Competitive Sourcing
                        Executive Steering Committee. The Committee approved the
                        recommendation to conduct a competition.
April 2002               Performance Work Statement (PWS) team began its work.
November 2002            Management Plan team informally began its work.
November 13, 2002       Request for Information and the draft PWS were issued.
December 13, 2002        Comments to the draft PWS were due and received.
February 2003            Management Plan team formally began its work.
April 25, 2003          Request for Proposal or solicitation was issued.
September 5, 2003       Original due date for proposals that was established in the
                        solicitation.
September 17, 2003       Independent Review Officer startup meeting was held.
November 18, 2003        Independent Review Officer certified the Internal Revenue Service’s
                         (IRS) cost comparison form.
November 25, 2003       Revised due date for proposals that was changed by amendments to
                        the solicitation. Also the received date for proposals and the date the
                        IRS’ bid was sealed.
April 2004               The award decision was expected.
August 2004             The revised date for the award decision.




                                                                                            Page 22
                       The Office of Competitive Sourcing Needs to Improve
                        the Planning, Scheduling, and Costing of Projects



                                       Campus1 Center Operations

     Date                     Event
     January 2002             The BCA team began its work.
     June 17, 2002            Results of the BCA were presented to the Competitive Sourcing
                              Executive Steering Committee. The Committee approved the
                              recommendation to conduct a competition.
     October 2002             The PWS team began its work.
     April 28, 2003           Request for Information and the draft PWS were issued.
     May 12, 2003             Comments to the draft were due and received.
     June 2003                Most Efficient Organization (MEO)2 team began its work.
     October 1, 2003          Request for Proposal or solicitation was issued.
     January 29, 2004         Original due date for proposals that was established in the solicitation.
     February 26, 2004        Revised due date for proposals that was changed by an amendment to
                              the solicitation. Also the received date for proposals.
     July – September         The performance decision is expected.
     2004


                                          7------------------------------

     7----                    7-----
     7---------               7----------------------------
     7-------------           ---------------------------------------------------------------------------------------
                              ---------------------------------------------------------------------------------------
                              ---------------------------------------
     7---------               7---------------------------
     7----------              7--------------------------------------------------------------------------------------




1
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
2
  The MEO is the Federal Government’s organizational unit that will compete for the work described in the PWS.
                                                                                                                 Page 23
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects

                                                      Appendix VI


 Management’s Response to the Draft Report




                                                           Page 24
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects




                                                      Page 25
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects




                                                      Page 26
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects




                                                      Page 27
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects




                                                      Page 28
The Office of Competitive Sourcing Needs to Improve
 the Planning, Scheduling, and Costing of Projects




                                                      Page 29
